<html>
<title> - SOUTHERN KORDOFAN: ETHNIC CLEANSING AND HUMANITARIAN CRISIS IN SUDAN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
  SOUTHERN KORDOFAN: ETHNIC CLEANSING AND HUMANITARIAN CRISIS IN SUDAN

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 4, 2011

                               __________

                           Serial No. 112-103

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
67-718                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc8dfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>  



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Rt. Reverend Andudu Adam Elnail, Bishop, Anglican Diocese of 
  Kadugli, Sudan.................................................     7
Mr. Bradford Phillips, president, Persecution Project............    14
Luka Biong Deng, Ph.D., executive director, Kush Inc.............    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Rt. Reverend Andudu Adam Elnail: Prepared statement..............    10
Mr. Bradford Phillips: Prepared statement........................    19
Luka Biong Deng, Ph.D.: Prepared statement.......................    31

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    62


  SOUTHERN KORDOFAN: ETHNIC CLEANSING AND HUMANITARIAN CRISIS IN SUDAN

                              ----------                              


                        THURSDAY, AUGUST 4, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And good 
morning to everyone. We have called today's emergency hearing 
because of the escalating crisis in the Sudanese State of 
Southern Kordofan. This crisis first arose in June of this 
year, shortly after the military forces of the Republic of 
Sudan attacked the Abyei region, apparently as a provocation to 
South Sudan's Sudanese People's Liberation Movement, or SPLM. 
South Sudan was about to become independent and these attacks 
may have been intended to provoke a fight that could derail 
their independence.
    At the same time, Sudanese attacks on SPLM North members in 
the Sudanese State of Southern Kordofan were increasing. 
Because of the fighting and the displacement of Sudanese and 
foreigners from Southern Kordofan, no one is estimating how 
many people are being killed in the area. We do know that more 
than 73,000 people have been displaced. Whatever the numbers 
involved, we can be sure that the suffering of the people of 
Southern Kordofan, especially the Nuba people, has been 
catastrophic.
    This latest violence is a tragic resumption of a prior war 
by the Khartoum government on the Nuba. Beginning in the 1980s, 
Islamist elements of the North began an eradication campaign 
against the Nuba, pitting northern Arabs against Africans in 
the South. Unfortunately for the Nuba, they are not 
Southerners, even though they have fought with the Southern 
army during the North-South civil war. But neither are they 
accepted by the elements ruling the North, even though many of 
them are Muslims.
    This left the Nuba on their own to suffer the onslaught of 
the Khartoum government. The strategy of cultural cleansing 
pursued by the government involved harsh attempts to depopulate 
vast areas, killing potential combatants as well as many 
others, and herding survivors into tightly controlled 
government so-called refugee camps.
    When jihad was declared by the Government of Sudan in 1992, 
even Nuba Muslims were targeted with the rationale that Muslims 
in SPLM areas were not true Muslims. Rape of Nuba women has 
been a central component of the government's strategy aimed at 
destroying the social fabric of Nuba society. Almost every 
woman who has been in one of Khartoum's so-called peace camps 
reportedly was either raped or threatened with rape. According 
to the United Nations Office for the Coordination of 
Humanitarian Affairs, between 30,000 and 40,000 people out of a 
population of 60,000 in Southern Kordofan, capital of Kadugli, 
have fled the town. Many of the attacks in Southern Kordofan 
were indiscriminate, including aerial bombardments and 
artillery fire by Sudanese Armed Forces. Bombings have been 
reported in five villages south of the state capital of 
Kadugli, as well as Talodi, Hebon and Kaudo and other towns.
    The U.N. Office of the High Commissioner of Human Rights 
told the U.N. Security Council on July 29th that there were 
reports as recently as July 27th of aerial bombings, forcing 
civilians to flee into the Nuba Mountains.
    I would point out that one of our witnesses today, Bradford 
Phillips of the Persecution Project, earlier this week, on 
Monday, brought with us very, very troubling evidence, 
eyewitness evidence that he had gleaned being there for almost 
2 weeks. So when we hear about the reports, here is a man who 
actually saw it and it is the reason, frankly, it was the 
genesis of this hearing today: His sense that we need to do 
something to bring focus and scrutiny and hopefully action to 
this terrible plight.
    Some today are trying to downplay the overwhelming 
responsibility of the Sudanese Government for the devastation 
taking place in Southern Kordofan by referring to the refusal 
of the SPLM North to lay down their arms to negotiate with 
Khartoum. But there is no moral equivalence between the SPLM 
North actions and those of the Bashir government. SPLM-North 
members are not bombing people indiscriminately, not driving 
Arabs off their lands and out of their homes, nor going door to 
door to identify their perceived enemies in order to execute 
them. The Government of Sudan's military forces are. And we 
will soon see photographic evidence of these atrocities.
    In addition, the recent attacks on Southern Kordofan have 
disrupted the planting season and will have a long-term 
negative impact on the ability of its people to feed 
themselves. In parts of Somalia, Ethiopia, and Kenya, people 
suffer from drought made worse by conflict. In Southern 
Kordofan, the national government is creating a similar 
humanitarian crisis. The death and destruction to which 
Sudanese Africans have been subjected was thought to have ended 
with the signing of the Comprehensive Peace Agreement in 2005 
to end the North-South Civil War. However, the genocide in 
Darfur diverted the international community's attention away 
from the unresolved issues between North and South.
    These lingering points of contention threaten to derail 
independence for South Sudan just as the independence process 
was coming to a conclusion. And now the struggle over Abyei 
threatens to stifle the suffering cries and pleas for help that 
are arising from the Nuba people as they are dragged into a 
resumption of the Northern war against them.
    We discussed this war during the subcommittee's June 16th 
hearing of South Sudan. At that time, the fighting in Southern 
Kordofan was as horrific as any attacks waged by the Khartoum 
government. The testimony that will be presented today by 
witnesses who have seen the carnage firsthand will reveal the 
horrific extent of this situation.
    Again, I welcome today's testimony to reveal the depth of 
this tragedy and to discuss ways to address the suffering of 
this particular region of Sudan.
    I would like to now yield to my good friend and colleague, 
Mr. Payne, for any opening comments.
    Mr. Payne. Thank you very much. And let me commend you, Mr. 
Chairman, for calling this very important hearing. I just 
rushed here from an earlier meeting that was called on the 
problem of Somalia and the drought that is going on there. And 
so I appreciate the chairman giving the attention to this 
region, which, of course, because of our pressing problems here 
in the U.S., and we do know that we have a primary obligation 
to our Nation to make it strong and to correct some of the 
errors that we have made in the past, we still cannot forget 
that we have a world that is really being shattered by unshared 
bread and that we have a responsibility still, as it says in 
the Bible, to be our brother's keeper.
    And so I know that it is difficult to focus on areas 
outside of our immediate problems, but I do appreciate the 
chairman keeping the issues before our Nation, because we do, I 
believe, have an obligation.
    Less than a month ago, the world witnessed the birth of a 
new nation, the Republic of South Sudan. I was among the 
delegation present at the ceremony. And I witnessed the joy of 
the people of South Sudan that day following many decades of 
struggle; struggle before independence, struggle since the 
independence in 1956, struggle with the civil war that broke 
out in 1989, struggles that continued until the CPA was signed 
in 2005, and struggles up until the conclusion of the 
referendum on July 9, 2011, when independence was announced and 
celebrated. So it has been a struggle for the people of South 
Sudan, and the struggle continues.
    The Sudanese people accomplished a great deal and their 
celebration is well deserved and certainly overdue. The 
peaceful nature in which 98.8 percent of South Sudanese voted 
for their independence was commendable and should serve as a 
witness of what Sudanese people are capable of. As a matter of 
fact, voter registration was probably in excess of 90 percent 
also. And it is recorded that this turnout even exceeded the 
turnout of South Africa when they had their first election, 
when Mr. Mandela was a candidate for President of a new South 
Africa. So we have to really commend the people of South Sudan 
for their determination and their appreciation for democracy.
    Unfortunately, though, persistent violence in South 
Kordofan and other border areas also remind us that the 
important work still remains to be done to ensure peace within 
both countries, North and South Sudan, and a peaceful 
relationship between the neighboring states.
    In June, this subcommittee convened to discuss the 
challenges that the pending nation of South Sudan would face. 
We are now on the other side of the independence celebration 
and are witnessing some of the challenges that Southerners 
living in the North are facing.
    In today's hearing, we will be focusing on the disputed 
region of South Kordofan and the human rights violations that 
are occurring at the hands of President Bashir against the 
Nubian people. As you know, the map was drawn in 1956, or prior 
to that, and when the British gave independence on January the 
1st, 1956, the lines were drawn. Had they been drawn today, we 
would know that South Kordofan and Abyei and the Nuba Mountains 
would indeed be a part of South Sudan. The people in those 
areas fought along with the SPLM and feel a part of the South. 
However, the lines have been drawn and they find themselves in 
the North.
    However, there was supposed to be accommodation made so 
there could be a discussion on what type of arrangement could 
be made in Kordofan, South Kordofan. However, the popular 
consultation has not taken place. The referendum in Abyei has 
not taken place. The elections in South Kordofan were not fair 
and free, and so we have problems that persist today.
    In today's hearing, we will be focusing on the disputed 
regions of South Kordofan and the human rights violations that 
are occurring at the hands of President Bashir against the Nuba 
people. In Southern Kordofan, an estimated 1.4 million are 
being affected by fighting between the South Armed Forces and 
the Sudanese People's Liberation Movement North. Thousands of 
innocent civilians have been killed and hundreds of thousands 
have been displaced. There are disturbing reports of targeted 
killing of Nuba people and mass graves that the SAF are 
searching homes for SPLM supporters, and then detaining, 
torturing and killing them. This is all evidence of ethnic 
cleansing.
    Unfortunately, the SAF are armed to do the job. They are 
using heavy weapons, including artilleries, helicopters, MiG 
fighters and Russian-made Antonov bombers to hunt the Nubians 
like animals, as it was said. The violence that is occurring is 
by no means an isolated or localized incident. Bashir has done 
this many, many times before in Darfur and Eastern Sudan and 
here in South Kordofan.
    Our first visit to Sudan in 1993, in a SPLA-controlled town 
near the Ugandan border at that time, was the front line, and I 
saw the firsthand suffering of the people in that area. When I 
returned, I introduced a resolution saying that the people of 
South Sudan had the right of self-determination, and that began 
the whole notion of a new nation.
    With deep sadness, I remember visiting Abyei in May 2008, 
just after the town had been attacked and burned to the ground 
by the Bashir forces and pro-government militia. The atrocity 
displaced more than 40,000 people. And upon return, I 
introduced a resolution to highlight this hideous act of 
violence that continues with the war-indicted al-Bashir.
    In late May, at the order of Bashir, Sudanese Army Forces 
invaded Abyei, killing over 100 and displacing an estimated 
100,000. South Sudan's President, Salva Kiir, has shown 
considerable restraint thus far because he does not want to 
have a war that would interfere with a peaceful resolution of 
the crisis. We must remember the human cost of these acts of 
aggression.
    The people of Abyei, Southern Kordofan, and throughout 
Sudan have suffered severely after prolonged civil war. For 
many, the violence and oppression continues, with targeted 
killings and prolonged displacement.
    Let us also not forget the ongoing crisis in Darfur, where 
many remain in displaced camps, and malnutrition, without any 
way to support their families due to the oppressive government 
of the Bashir people and the military tactics.
    Along with my fellow Sudanese Caucus co-chair, we are 
circulating a letter to President Obama urging him to condemn 
the violence in Southern Kordofan. We must use all available 
diplomatic and political tools to combat these human rights 
abuses, including possible sanctions and other accountable 
measures.
    It is also important that the United States properly fund 
aid programs and peacekeeping missions that are helping to save 
countless lives. The proposed foreign aid budget cuts would 
greatly hinder our ability to provide relief to these affected 
areas and to help bring stability to the region. That is why 
during the foreign operations authorization bill markup last 
month, I proposed an amendment that would have increased 
funding for the U.N. peacekeeping budget, the President's 
request of $1.92 billion, and to add 60 million to be set aside 
for a contingency fund specifically to address these atrocities 
we are now witnessing in Southern Kordofan and the border 
regions. I am interested at this hearing and hearing from our 
panel on how the budget cuts would affect the work they are 
doing.
    I am also encouraged to see that today President Obama 
announced a new initiative directing a comprehensive review to 
strengthen the United States' ability to prevent mass 
atrocities. This new initiative will include the creation of 
the Atrocities Prevention Board that will have the authority to 
develop prevention strategies to aid the U.S. and its allies in 
responding to early warning signs and prevent potential 
atrocities.
    The President has also issued a proclamation barring 
persons who organize or participate in war crimes, crimes 
against humanity, and serious violations of human rights from 
entering the United States of America. I applaud the President 
for remaining engaged in combating the mass atrocities that are 
occurring in Sudan and around the world.
    On July 9th, the world celebrated with the people of South 
Sudan, and rightfully so. After all, the United States and 
people here like Mr. Wolf and others have played such an 
important role in what we see today. And so we are a critical 
partner in the Sudan peace process, as we all know. While our 
efforts have been fruitful, our work to ensure stability and 
prosperity for all Sudanese people is far from complete. We 
must remain engaged and commit our support to democracy, rule 
of law, justice and peace for the people of Sudan, whichever 
side of the border they live. Thank you very much.
    Mr. Smith. I want to thank the ranking member for his 
statement.
    I recognize Ann Marie Buerkle from New York, a member of 
the subcommittee.
    Ms. Buerkle. Thank you, Mr. Chairman. And thank you for 
calling this extremely important emergency hearing. Just 
reading the testimony for today's hearing is a sobering 
reminder that the suffering of the Sudanese people remains 
ongoing.
    Although it is important that we celebrate the new nation 
of South Sudan, we cannot forget their fellow Sudanese across 
the border. The South Kordofan area has been beset by slaughter 
and disease and heartbreak for decades. It is frankly 
unfathomable, but the people who were responsible for the 
Darfur genocide are still in positions of authority, still 
carrying out their horrific war crimes. And now with the 
struggles between the North and South Sudan over Abyei, the 
crisis in South Kordofan is escalating and is further 
destabilizing an already fragile region. And that 
destabilization means the cost of thousands of lives and 
presents a serious threat to not only the Nuba Mountains and 
contested areas, but also to the newly born South Sudan.
    Thank you to our witnesses for being here today to share 
what you have learned firsthand. Thank you, Mr. Chairman. I 
yield back.
    Mr. Smith. Ms. Buerkle, thank you very much.
    The Chair recognizes Chairman Wolf.
    Mr. Wolf. Thank you very much, Mr. Chairman. I will just be 
very, very, very brief. One, I want to thank the witnesses. 
Two, I want to personally thank both you and Mr. Payne for 
having this hearing so fast. I almost have never seen something 
turn around, I mean, when the two of you got together. So I 
personally want to thank both of you. I think it is incredible, 
your interest, and how the two of you work together, and you 
both deserve a lot of credit.
    Lastly, I would just say to the church in the West, I think 
the church in the West has to really do a better job of 
advocating for the persecuted church. I see one of the 
witnesses, Richard Wurmbrand, who I have read his books over 
the years and visited once in Romania. The silence of the 
church in the West is actually incredible. And when I think of 
what is taking place to believers in that part of the country, 
that part of the world and others, and yet I hear total 
complete silence, is sort of incredible. If anything, hopefully 
this hearing can motivate not only the administration, but also 
the church, the leaders of all the denominations to come 
together to advocate for this. But we will see what comes out 
of this hearing.
    I will thank the witnesses. And I want to again thank you 
and Mr. Payne for just working together, getting this thing 
done right away. I mean, somebody comes up with an idea and 48 
hours later we have got a hearing. So thank you very much. I 
yield back.
    Mr. Smith. Thank you very much, Chairman Wolf.
    Let me introduce our very distinguished panel of witnesses 
today, beginning with Bishop Andudu Adam Elnail, the Anglican 
bishop of Kadugli, Sudan, the capital of the conflict-torn 
region of South Kordofan. He chairs the Interfaith Committee 
for this conflict-torn region. He has been outspoken and 
courageous. In a recent interview with Bishop Andudu, Religion 
Dispatchers writes: If Anglican Bishop Andudu had not been in 
Denver receiving medical treatment in early June, he might be 
in a mass grave now. That is how volatile and how dangerous the 
situation is today.
    And again, we are deeply indebted that he is here, flew 
here and will be providing this subcommittee and hopefully the 
entire Congress, and, by extension, the American people, very, 
very important insights and will be a rallying cry for action.
    We will then hear from Mr. Bradford Phillips, who serves as 
President of the Persecution Project Foundation and as a Sudan 
country director for the Voice of the Martyrs, two nonprofit 
organizations dedicated to serving the persecuted church. And I 
would point out parenthetically that in 1980, I read Richard 
Wurmbrand's book, ``Tortured for Christ.'' He had suffered 
horrifically under the Securitate, Nicolae Ceausescu, the 
dictator of Romania, and spent years of being tortured, he and 
other believers. And that is what got me involved in religious 
freedom issues after reading that book. Mr. Phillips is one of 
the leaders of Voice of the Martyrs, the group that continues 
that work.
    And he also is founder and President of the Persecution 
Project. Since 1998, Mr. Phillips has helped document acts of 
genocide committed by the Government of Sudan, while also 
assisting in a variety of humanitarian efforts in Southern 
Kordofan. He recently spent 2 weeks interviewing victims of war 
crimes against Nuba. As I said in my opening, the reason why we 
are meeting here today was his urgent plea on Monday that this 
Congress bring light, scrutiny, and hopefully an action plan, 
as well as the President and the State Department, to try to 
mitigate this terrible, terrible, worsening situation in South 
Kordofan. He is also founder of 100 Wells Campaign, the 
humanitarian project that provides clean water to Darfur 
refugees.
    Then we will hear from Dr. Luka Biong Deng, who is the 
executive director of Kush Incorporated. Dr. Biong is an expert 
in African affairs, civil wars, and conflict resolution and has 
published numerous articles in international journals 
addressing these issues. He is also a founding member and 
chairperson of the board of directors of the Abyei Community 
Action for Development. Dr. Deng serves as Minister of Cabinet 
Affairs for the Government of Sudan and is a Minister of 
Presidential Affairs for the government of Southern Sudan. He 
has also worked for the World Bank and for Southern Sudan 
Centers for Census, Statistics and Evaluation.
    Again, thank you all for being here on such extraordinarily 
short notice. I would like to begin with the Bishop, if I 
could. And please proceed as you would like.

STATEMENT OF RT. REVEREND ANDUDU ADAM ELNAIL, BISHOP, ANGLICAN 
                   DIOCESE OF KADUGLI, SUDAN

    Bishop Andudu. Thank you, Chairman Smith, for calling this 
emergency hearing on the threat of human rights and human 
security in my home region of South Kordofan.
    I would like also to thank the ranking members for their 
leadership support of the endangered Nuba people as well. I am 
here to testify about all of my people and my members of my 
church and the flock. They just give me all the time is the 
news from the ground.
    I want to start with what happened in my diocese and in my 
town of Kadugli, where the major atrocities are taking place. 
My house was shot with the guns, and my chaplain was able to 
escape through the window. And also my offices and cyber cafe 
was burned down, and cathedral as well. And, really, the 
atrocities is taking place not only with the Christians, but 
also even the Muslims, and the mosques has been bombed for the 
black Muslims. And one of my flocks told me very clearly he has 
seen the earth mover in South--the school of Tilo, and and 
digging two pits. And in the evening, they brought bodies in 
the location, and the SAF and militia PDF and other people 
putting on uniforms of the prisons in Kadugli, and also some 
people working with Red Crescent. And some of the people was 
put in the body bags, white body bags, and they are put in the 
pits.
    So he has seen this personally and I have spoke to him many 
times. And I believe really what he has seen. And also this is 
consistent with the image that was taken with the satellite. 
And really I appeal for the United States also to deploy its 
own satellites so that it can prevent the eyewitness and also 
for the government not to tamper with the mass graves that was 
found. And also call for an investigation to find out exactly 
what is taking place.
    And in the Nuba Mountains now, the children are killed, the 
women--the bombing is--the civilian is targeted. It is a war of 
horror. So, really, creating ethnic cleansing in the Nuba 
Mountains.
    Every day I have been indebted from different cities in 
South Kordofan, and we are experiencing people running in the 
mountains. I have given photos last week for the people that 
just eat greens. Eat greens and there is no food. And at the 
same time, this is very important time for us in Nuba 
Mountains. We are cultivating. This is the beginning of the 
season. So if you have not died by the bombs, in next October, 
the time of harvest, we will not have any food and then also 
you will die.
    That is why we are calling for the U.N., government, and 
other international communities and the African Union. These 
are the people that help us to sign the CPA, the peace 
agreement in Sudan. And we are very grateful for the decision 
of South Sudan. But at the same time, Nuba Mountains is left 
struggling, and I want the U.S. Government really to go farther 
and to secure our people in Nuba Mountains. The bombs get 
dropped every day. Really we need the government and 
international community to stop these bombings. They are 
killing people. SPLM have no planes, have no bombings. So if 
these planes can be stopped to spare the lives of the people. 
It is not thrown on the military, but it is thrown on the 
civilians, and in places where there is not any near barracks 
of the soldiers.
    And at the same time, the government is not allowing the 
humanitarian access, there is no--any organization is going to 
give food. They are forbidden.
    I am also calling for the international community and the 
U.S. to make any ways for the humanitarian to get access to 
give aid of food and also to give the medicines for the injured 
people in the Nuba Mountains.
    And at the same time, the U.N. troops in South Kordofan, 
they are threatened by the government of Bashir. They have been 
told now they have to move. They were not allowed to go and 
investigate the mass grave. And really, we want the increased 
and also effective peacekeepers in the Nuba Mountains. The 
people of Nuba, they want peace, but they were forced to fight 
to defend their people. And Nuba people are afraid. They don't 
know what is going to happen. They feel they are forgotten 
because nothing is going there to give them the freedom.
    And Bashir and Haroun, these are people wanted by 
International Criminal Court. They don't want--the crimes in 
Darfur. They are the same people. And the war is running after 
them. We create these unsigned peace in another part of the 
region, like in Southern Sudan. When the CPA was signed, they 
start war in Darfur. And also now when the South Sudanese have 
ceased, also they start war in Nuba Mountains.
    This is the type of government we have been dealing with 
for over 20 years. This is a government that is just killing 
people, its own people, and people continue to engage in the 
signable peace and it would be broken.
    We are not alone calling for the international community to 
help us, but all of the people in the world. Like here, we have 
the petition. Over half-a-million of the people around the 
world, they are striving and they are calling for a stop and 
butcher ethnic cleansing in Nuba Mountains. So we are calling 
for, really, action in the region of Nuba Mountains and other 
marginalized areas. Thank you.
    Mr. Smith. Bishop, thank you very much for your testimony 
and for your urgent appeal to the United States and the world, 
the intention of the community, to respond and to do so 
immediately.
    [The prepared statement of Bishop Andudu Adam Elnail 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Mr. Smith. Mr. Phillips.

  STATEMENT OF MR. BRADFORD PHILLIPS, PRESIDENT, PERSECUTION 
                            PROJECT

    Mr. Phillips. Chairman Smith, Ranking Member Payne and 
members of the subcommittee, thank you very much for inviting 
me to testify at this emergency hearing on the current crisis 
of the Nuba Mountains of the Southern Kordofan State in the 
Republic of Sudan.
    By way of introduction, my name is Brad Phillips, and I am 
here on behalf of two organizations that have a relatively long 
history of working in Sudan. The first is Persecution Project, 
as was mentioned; and the second is the Voice of the Martyrs. 
And much of our emphasis has been on Sudan during more than the 
last decade.
    My very first trip to Sudan brought me to the Nuba 
Mountains after reading the reports of the genocide that was 
happening there. Alex de Waal, Julie Flint, and many others had 
written reports. I had heard about the extermination of more 
than half of the Nuba population. And so that was my first 
introduction to Sudan. And at that time, as was with my most 
recent visit, there were bombings going on every day that were 
part of an aerial campaign of terror against civilians.
    Mr. Chairman, I realize that you and your colleagues are 
only now concluding a very busy time concerning the recent 
debate on raising the debt ceiling, so I am extremely grateful 
that you have taken time to hear about this very important 
issue, which is a nonpartisan issue. It is an issue of 
genocide. Genocide is currently being perpetrated in the Nuba 
Mountains in the Southern Kordofan State of the Republic of 
Sudan.
    I know you have had the opportunity several times to 
receive testimony on this issue from my learned friend, Roger 
Winter, who has acted in many different capacities, including 
the former Special Representative on Sudan. And during his last 
testimony on the 16th of June, he reported to you on this war 
of genocide now being waged in the Nuba. And I am here simply 
to say that everything that Mr. Winter presented in his 
testimony about Southern Kordofan State is true. I have seen it 
with my own eyes.
    Less than 3 weeks after Mr. Winter's testimony, I was in 
the Nuba Mountains for 12 days. I fully understand that what is 
happening right now in the Nuba Mountains requires some context 
and some background. And I appreciate very much the long 
history that you have had, Mr. Chairman and Ranking Member 
Payne and Congressman Wolf, and so many others on this 
committee on this issue. But for the sake of others, in 1989, 
through a coup d'etat, the National Islamic Front came to power 
in Sudan. And its leadership consisted of Islamic extremists. 
Many of them were founding members of al-Qaeda. They were 
birthed by the Muslim Brotherhood. They were identified by our 
Government as terrorists or supporters of international 
terrorism.
    And as soon as the National Islamic Front came to power, it 
began an intensive military campaign to Arabize and Islamize 
the indigenous African population in Southern Sudan, the Blue 
Nile, and the Nuba Mountains region of Southern Kordofan State, 
and more recently in Darfur. During the 1990s, up until the 
peace agreement was signed in Naivasha in 2005, more than 2 
million Southern Sudanese people, most of whom were Christian 
or animist, were slaughtered. But in the Nuba Mountains in the 
1980s and the 1990s, roughly half the population of an 
estimated more than 500,000 people were slaughtered in a 
similar genocide. And all of us, I think, are aware of the 
genocide that took place in Darfur beginning in 2003 that 
claimed an estimated 400,000 lives.
    The primary resistance of the National Islamic Front during 
the last war came from the SPLM, the Sudanese People's 
Liberation Movement, that was led by its charismatic leader, 
Dr. John Garang de Mabior. Dr. John was a Christian from South 
Sudan, but he desired freedom and self-determination for all of 
the Sudanese people and his vision was called the New Sudan. 
After more than 20 years of fighting, the SPLM fought the 
National Islamic Front to a standstill. And with the help of 
international pressure, much of it led by the United States, 
the NIF was forced to the negotiating table. And all of that 
was consummated in January 2005 with the Comprehensive Peace 
Agreement signed in Naivasha, Kenya.
    This agreement provided South Sudan with semiautonomy and 
eventually a referendum vote on self-determination which we all 
know resulted in the welcoming in of the Republic of Sudan as 
the world's newest nation most recently on July the 9th. But 
while we do celebrate with South Sudan its independence from 
this murderous regime, we must not forget that many 
marginalized groups in the North were not given the same 
guarantees as the South, specifically the Abyei region in 
Southern Kordofan State. The Nuba Mountains also in Southern 
Kordofan and the Blue Nile State received implicit promises for 
self-determination and for--as well as some explicit promises 
in this agreement. But as subsequent actions have shown during 
the interim period of the CPA, the NIF, now renamed the 
National Congress Party, really had no intention of granting 
self-determination to these marginalized areas.
    Under the CPA, the Nuba were guaranteed a free election. A 
gubernatorial election, most recently, was supposed to take 
place in May of this year, followed by a popular consultation 
whereby elected leaders would interview their constituents and 
determine what the people wanted to do with regard to their 
political future. This consultation process would hopefully 
have paved the way for regime change or some sort of power-
sharing arrangement in Khartoum that would recognize and 
respect the rights of all of Sudan's diverse communities in 
Southern Kordofan State. As of today, the popular consultation 
that was promised by the CPA has not taken place.
    Moreover, Sudan's President, Omar al-Bashir, publicly 
stated in April of this year, that if the National Congress 
Party could not get its way at the ballot box, it would use the 
ammo box. He went on to say that he would smoke the Nuba people 
out of the mountains using tanks and camels. This was really a 
declaration of war on the 27th of April by Omar al-Bashir and 
it was a violation, a clear violation of the Comprehensive 
Peace Agreement.
    Earlier that month of April, as an intimidation tactic and 
I believe as an attempt to draw the SPLM into war before the 
election, Bashir sent militia forces to an area called el 
Fayit, which is the home area of Commander Abdel Aziz Adam al-
Hilu, and 27 members of Commander al-Hilu's family were 
murdered in this attack. He didn't take the bait and he went 
through with the elections. When the elections finally took 
place, the evidence of large-scale vote rigging was reported. 
Yet even with the evidence of vote fraud, Bashir jumped a few 
steps and sent down his advisor, Nafie ali Nafie, to declare 
their candidate, indicted war criminal, Ahmed Haroun, the 
winner without any verification process taking place.
    The newly elected Governor Haroun then ordered all SPLM 
forces out of Southern Kordofan by the 1st of June. This order 
was in direct violation of the CPA, which allowed the SPLA to 
operate in Southern Kordofan up to 90 days after the close of 
the interim period on July 9th. This attempt by the NCP to 
cleanse the North of the SPLM/A before the July 9th 
independence of South Sudan was also carried out in the 
disputed Abyei region. After amassing troops around Abyei, NCP 
forces invaded on the 20th of May, forcing most of the 
indigenous African population out. Some estimates of the number 
of refugees from this area are as high as 100,000. It became 
obvious to all watching these events unfold what was happening. 
It is no wonder that the SPLM refused to disarm or to leave 
Southern Kordofan State.
    When the order was not obeyed by the June 1st deadline, the 
NCP tried to disarm the SPLM by force, and this was the 
beginning of the war on June the 5th. On June the 6th, the NCP 
attacked and sacked the capital of Kadugli, murdering 
potentially thousands of civilians in the subsequent days.
    The NCP also pulled out an old card from their deck, which 
is the daily indiscriminate aerial bombardment of civilian 
targets. Using Antonov bombers, MiG fighters and helicopter 
gunships, the NCP launched a campaign of terror in the skies. I 
have included some pictures of these bomb locations, which I 
think are playing now on the screen, bombing civilians.
    I personally arrived in the Nuba on the 4th of July in one 
of the few private charters that was flying to the Nuba, since 
all humanitarian flights had ceased. And during my visit I had 
the opportunity to spend time with and interview more than a 
dozen individuals who had escaped from Kadugli during the first 
few days after the ethnic cleansing started, and all of whom 
shared the same basic story, the one which the Reverend has 
just shared and which you will hear from others.
    Sudan Armed Forces went from house to house searching for 
any Nuba citizen, anyone who was identified with the church or 
anyone who has associated with the SPLM. And anybody fitting 
either of these three descriptions was either killed on the 
spot or arrested and never seen again. Fortunately, a few 
thousand residents obtained shelter at the UNMIS compound, but 
the compound after being filled--and I have heard many stories 
and accounts of people being killed at the gates of this 
compound as a result of the UNMIS allowing the security forces 
and the intelligence forces of the SAF to enter the pound and 
take Nuba people out of that compound while they stood by and 
watched.
    I had the opportunity to spend time with one of the 
colleagues of Rev. Andudu, Rev. Luka Bolis, who is the chairman 
of the Sudan Council of Churches and he is also an Episcopal 
priest from the same area. And he escaped from Kadugli within a 
few days after it started. And what he said to me--and I have 
submitted the video of my interview with him to this 
committee--the NCP is targeting the church in this war. Rev. 
Luka received a call from some of his friends after first 
escaping to an area called Shaiir, and then making his way 
outside of Kadugli County. And they basically told him that he 
was on the list, which is what the bishop here has told me as 
well. Meaning that if they find him, if they catch him, they 
are going to kill him. Rev. Luka's testimony corresponded with 
so many other Nuba Christians and non-Christians alike who were 
persecuted in the last war by the same regime.
    I would just mention one story of a man who I met whose 
fingernails were pulled out, his genitals were crushed, he was 
dragged behind a tank, he was in and out of prison for 8 years. 
And what he pointed out to me was this is the very same regime 
that did this to him that is now bombing his village, and we 
saw the planes passing over three or four times a day. Rev. 
Luka said the NCP does not distinguish--in addition, they do 
not distinguish between a Christian and a member of the SPLM 
political party. They assume that if you are associated with 
the church, that in fact you must be SPLM and SPLA. And this 
was the testimony that we got from so many pastors that we 
interviewed.
    When they captured them, the first thing they did was, they 
asked them for a list of all the members of their congregation. 
Because if you are a part of the church, you are the enemy. 
Consequently today, even today, pastors and church leaders are 
being specifically targeted as leaders and recruiters of the 
SPLM.
    Another pastor who I interviewed, who I will refer to as 
Kumi for security reasons, was arrested by the NIF, tortured in 
some of the most horrific ways and, as mentioned, he was forced 
to divulge the names of his church members. During his capture, 
which I have already mentioned, they pulled out his fingernails 
and his toenails, they hung him by the neck and they crushed 
his genitals. They poured gasoline on his hands and they set 
them alight. And they did many other cruel acts. This pastor 
was imprisoned for a total of 8 years. And although he lives a 
several-hour drive from the area where Rev. Luka was from, his 
testimony was the same.
    Yet another church leader that I met in a completely 
different area was stabbed 10 times. His name was Musa. They 
stabbed him 10 times. He told me that he was killed along with 
7 other elders and pastors in his church. They destroyed his 
church, they stabbed him 10 times. They believed he was dead, 
but he survived. And each one of the people that they killed, 
they cut off their ear as a trophy to go and take back and show 
what they had done. And his message to me was again was that 
these are the same people that are bombing us today, these are 
the same people that are cutting off people's heads and 
slaughtering people like animals in Kadugli. And if they have 
their way, they are going to exterminate us.
    So I heard these stories over and over again during the 12 
days that I was in the Nuba Mountains. The only difference in 
what I saw in 1998 and what I saw last month is that the SPLM 
has clearly taken the initiative and taken the fight, as it 
were, to their enemies, led by their leader, Commander Adbel 
Aziz Adam al-Hilu. The people of the Nuba Mountains are 
fighting back and have won some impressive victories on the 
ground. And this has occurred without any significant help from 
the international community.
    This determined resistance by the SPLM in the Nuba 
Mountains is a genuine popular uprising, and the only thing 
that has prevented another Rwandan-styled genocide from 
happening. But time is running out. The U.N. ended humanitarian 
relief efforts early in June and most NGOs operating under the 
U.N. umbrella pulled out. All the roads to the North have been 
closed and the rainy season in South Sudan has effectively 
closed supply routes to the south until the end of the season 
in November or December. The daily bombings have terrorized the 
local populations to a degree that normal cultivation is not 
taking place during this very crucial planting season.
    The Nuba Mountains are isolated, cut off and facing a very 
severe humanitarian crisis within the next 60 days or less 
unless relief flights are allowed to recommence. And this will 
not happen while SAF MiGs and Antonov bombers and gunships 
continue to patrol the skies. The NCP refuses to allow U.N. 
observers into the Nuba Mountains to document what is 
happening, which should not surprise anyone.
    It is absolutely essential that the international community 
bring pressure on the United Nations to immediately declare 
humanitarian emergency in the Nuba Mountains and impose a no-
fly zone to stop the bombing campaign and allow humanitarian 
access so that relief flights back into the region may resume.
    I will conclude by stating there is more than enough 
evidence to justify speedy action on the part of the United 
States Government and the international community to address 
this very dire situation in the Nuba Mountains. The President 
of Sudan, Omar al-Bashir, is an indicted war criminal. The 
current governor of the Nuba Mountains is Ahmed Haroun, also an 
indicted war criminal because of his role in the Darfur 
genocide. In fact, he was the one carrying out the genocide in 
the Nuba Mountains in the 1990s. These men make Libya's Ghadafi 
look like a choir boy. There is no justification in my mind for 
a bombing in Libya while we do nothing in a place like the Nuba 
Mountains.
    Many seasoned reporters from the New York Times, Time 
Magazine, Aljazeera English, The Independent and others, had 
visited the Nuba Mountains. Some of them were with me during my 
time there. And they brought back testimonies, pictures and 
video that corroborate and prove that the war crimes are being 
committed right now against the Nuba people by the National 
Congress Party regime.
    I have included some copies of some of these articles with 
my testimony, and I ask the question: How is it, then, that the 
U.S. Government still claims there is not enough evidence to 
charge the NIF with war crimes? Why does the U.S. Government 
treat--deal with the NCP and the victims of their crime with a 
moral equivalency. Based on the history of the NCP and what we 
know about what they are doing in Darfur, in Abyei and the Nuba 
Mountains, it amazes me how the U.S. and the international 
community is able to tolerate these killers for so long, yet 
aggressively pursue other villains who have not killed \1/
100\th of the people for which deaths Omar al-Bashir and his 
regime are responsible.
    [The prepared statement of Mr. Phillips follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much for that very powerful 
testimony.
    Dr. Deng.

 STATEMENT OF LUKA BIONG DENG, PH.D., EXECUTIVE DIRECTOR, KUSH 
                              INC.

    Mr. Deng. I thank you for inviting me to testify today. 
Good morning, Chairman Smith, Ranking Member Payne, and other 
distinguished members of the committee. It is indeed an honor 
for me to testify in this opportunity and to focus on a 
critical issue. I welcome and honor the opportunity to provide 
my thoughts to you today on the issues facing Sudan, Southern 
Sudan, and indeed the people of Nuba Mountain.
    I am currently serving as executive director of Kush, Inc. 
It is a nongovernmental organization trying to promote peace 
and stability, both to forge a relationship between Africa and 
the U.S., but indeed focusing on Abyei and Southern Sudan.
    Mr. Chairman, I am one of the people who participated in 
the negotiation of the peace agreement, but even importantly, I 
was negotiating the protocol of the two areas. And I want to 
echo again what happened during the peace agreement. The people 
of Nuba Mountain not only participated in the struggle for the 
rights, but indeed even the popular consultation that was given 
to them by the CPA, that was not that choice. The choice was to 
have the right of self-determination, but they did not get it. 
And they are so determined, having the popular consultation as 
a step for them to pursue the right of self-determination.
    What I want to share with you today also, before I became 
the executive director of Kush, I served as a senior minister 
of national government, as a Minister of Government Affairs. 
Mr. Chairman, I resigned on the 21st of May this year after al-
Bashir and his government invaded Abyei. And when he invaded 
Abyei, I saw thousands of people marching out, crying children, 
dazed, in order to look for safety. And I saw clearly a 
pattern, a clear pattern, of a leadership focusing on 
selectively targeting its own people.
    It started with Darfur, but coming through to Abyei, what 
indeed you are seeing today in Southern Kordofan, a clear case 
of ethnic cleansing, a clear case of the African people in that 
continent, that country being displaced, and the Arabs being 
settled on their land.
    So I decided to resign, and I sent him my own resignation 
because of what I saw as real atrocities against humanity in 
Sudan. And I share this, Mr. Chairman, because I think Numa 
Mountain is just an example of the pattern that is happening 
along the North/South border, and that is why I felt we should 
widen it in order to look at the border between the North and 
the South.
    Definitely what is happening is unacceptable, and it is 
going to continue throughout the border region of the North/
South. But you should remember also there is another region 
that is going to face the same soon; that is, the Blue Nile.
    I appreciate the opportunity you have provided me today to 
discuss the current situation in Southern Kordofan and others, 
and the recommendation that this great government and people of 
America could do in order to address the alarming situation in 
Sudan. But it is very important to look also at the hopeful 
picture that is emerging in the South, and that is why I would 
like to look at those issues as well.
    Mr. Chairman, as echoed and mentioned by Congressman Payne, 
I see the people of Southern Sudan, when we talk about the 
stability and peace, we should look at the success that the 
international community did in that region of Southern Sudan. 
And I think, when we talk about the relationship of the North 
and the South, Southern Sudan is a reflection of the 
marginalized people who suffered to get their independence. But 
indeed, what we are seeing in Numa Mountain is echoing again--
what happened to the people of Southern Sudan we are seeing in 
Nuba Mountain and Abyei, and definitely in Darfur.
    What is most important for you and us to know is after the 
secession of the South, I see it becoming critical that the 
emerging or the remaining--the continuing leadership in 
Northern Sudan are tending now to go to the radical elements, 
and the military government or the worst elements are actually 
directing that state. From even echoing of the secession of the 
South, now they have repurified Sudan, a Sudan that only has 
two elements, Muslims and Arabs, this with disregard to the 
great African people in Darfur and Southern Kordofan and Blue 
Nile. You can see extremists emerging in that country in the 
Northern Sudan.
    Personally, I feel what is happening in South Kordofan is 
not only ethnic cleansing, as you have put, I would say it is 
indeed a crime against humanity. And let us put it in that 
context because it will help us to focus more rather than on 
ethnic cleansing. It is not about Nuba, it is about the people 
and about the traditions of their land. That is what we are 
seeing. And there is a similar pattern that is also being 
committed, as I mentioned earlier.
    As a personal witness, I came 10 days ago from Abyei area, 
and I saw how such atrocities are affecting the people. Two 
months ago, hundreds of thousands of people got displaced, and 
when I saw them again, they are in very appalling conditions, 
no shelter. But even children are dying at great numbers 
because of one action by the leadership in Khartoum.
    But I feel also, with those in Northern Sudan and the 
remaining Sudan, it is critical for us also to look to the 
opportunities in Sudan. The Sudan People's Liberation Movement 
Northern Sector, headed by people like Malik Agar, Abdel Aziz, 
and Yasir Saeed. This is the only credible political party that 
I feel it is a real ally that could really challenge the NCP 
democratically in order to transform the system in Khartoum, 
because these are the people who fought the war and that 
believe truly a commitment to the peace.
    But what we are seeing is that these people of SPLM 
Northern Sector, because of the thing happening in South 
Kordofan, are giving a push for the option of regime change and 
for the armed struggle, and that one is going to affect, 
eventually, the people of this area.
    Mr. Chairman, it is very important for us also to take into 
account what is happening and why it is happening now. And I am 
negotiating even with the national government, the Sudan 
Government, under the auspices of the African Union. And it is 
good to take account of what happened in Nuba Mountain in 
sequence.
    I want to remind the committee that the people of Nuba 
Mountain were given this right of popular consultation. That 
was their expectation. It took us a bit of a struggle for us to 
have legislation for the popular consultation. But you know, 
and as echoed by Congressman Payne, the election in Nuba 
Mountain was robbed by the NCP with the hope to dilute the 
popular consultation of the people of Nuba Mountain.
    But it is important also that even in the Blue Nile, they 
accepted the process of the popular consultation because the 
popular consultation is supposed to be done by the 
representatives of the people in the national legislature. But 
before that went before the popular consultation, if the Nuba 
people and Blue Nile are not satisfied, it should be discussed 
at the national level, at the national legislature. What 
happened, the NCP unilaterally dismissed the members of the 
South in the national legislature, so we would be left with an 
assembly that will not reflect and defend the people of Nuba 
Mountain, because the members of the SPLM in the national 
legislature are supposed to be there after the 9th of July, the 
end of the interim period, but they decided prematurely and 
before this time.
    It is important to know also that NCP unilaterally took a 
decision to disarm the SPLM in these two areas. And the 
commitment in the security arrangement was for us to have this 
good, integrated unit to continue up until the 9th of July, 
2011, but they decided to attempt to disarm them before time, 
and that is what triggered the conflict we are seeing today, 
dishonoring what we had agreed upon.
    But it is very important also to know that during the 
negotiation in Addis Ababa, an agreement was reached between 
the SPLM and the NCP, the leadership of the NCP, for an 
arrangement so that the people had entered into dialogue. What 
happened after the signing agreement in the disarmament, the 
NCP rejected that agreement. And that agreement was talking of 
a dialogue between the SPLM and NCP about the forces, but even 
a dialogue about the whole reform in Sudan. And for the SPLM, 
they rejected that one. The result today is the atrocities you 
are seeing in Nuba Mountain.
    But in the same pattern, I want also to share with you what 
happened in Abyei. We agreed to having a referendum of the 
people of Abyei. And in that agreement, the protocol of CPA, we 
agreed there would be an Abyei Boundaries Commission formed. 
That commission was formed, and we agreed it should have a 
final and binding say for the boundaries of Abyei. What 
happened, the NCP rejected that one very early of the peace 
agreement. They pushed us to deliver that to go to the 
Permanent Court of Arbitration. We went to the Permanent Court 
of Arbitration for the sake of peace, and the court resolved to 
define the area of Abyei. They rejected it, and they said, now 
this area belongs to the Misseriyia Arabs.
    We agreed with the NCP that we should be able to--they 
themselves to appoint the chair of the Southern Sudan 
Referendum Commission. And we, the SPLM--I mean, by them before 
joining--to nominate the chairperson of Abyei Referendum 
Commission. They refused. We accepted the chair for them, for 
the Southern Sudan Referendum Commission, and when we came to 
form the Abyei Referendum Commission, they refused. And they 
invaded.
    Because we failed to condemn the actions in Abyei, we asked 
the African Union in order to come up with a solution. We were 
looking for a decision through the African Union. During the 
time we were waiting, they invaded Abyei in May 2011. And we 
are seeing again a lot of atrocities being committed in Abyei. 
These are leadership dishonoring whatever they agreed with.
    And I think with that one in mind about what they have been 
doing, I say it is very important to look at the South also, 
because these people, the hope for them, whether in Nuba 
Mountain, Darfur, or Southern Kordofan or Blue Nile, be the new 
nation that is being formed now in Southern Sudan because these 
people will take refuge definitely in this country. And it is 
very important for the international community to know this 
country called Southern Sudan is a pride to all of us, the 
international community, a collective plan that we did together 
that is the result of what we are seeing in Southern Sudan. How 
much people will describe this country--I am seeing in that 
country a passion within the global value to build a new 
nation.
    And as mentioned by Congressman Payne, I think they are 
going to face a lot of difficulties. And that is why we are 
saying having a viable Southern Sudan is very important. In the 
middle of the domestic challenges facing you, I think it is 
very important that we should focus on Africa. But Southern 
Sudan is a good test for us to make it a viable state. And that 
is the only hope for the people of Nuba Mountain, the people of 
Blue Nile, and even the people of Abyei.
    I want to conclude with some key messages. We are working 
as--a vision and how it is very important for the refocusing of 
assistance.
    Definitely I would especially would like to say that there 
is a leadership problem in Sudan. And this leadership in Sudan 
is a liability, not just to its own people, but it is a 
liability to the continent, it is a liability to the people of 
Southern Sudan. And I think it is very important for the world 
to focus attention on what is happening in Sudan, because if we 
don't do it now, it is going to become a huge crisis in the 
region--in the North, but indeed it is going to affect this 
region and the continent at large.
    Extremists are becoming very obvious in the North, and 
their appetite for ethnic cleansing and war is becoming 
apparent in the North. What should we do? I think it is very 
important that the United Nations play an influential role in 
the region--it is a great mission--and it is very important to 
take the lead on how to address. It is true that it is an 
African problem, but consistently it has become very clear how 
much we have been played in order to bring the commitment for 
peace, stability and solidarity with the humility. And we 
accept that role. Sudan is possible if we can live and if we 
collectively work together.
    I think it is very important also that Southern Sudan, put 
it at the heart of your priorities. It is the only hope that we 
have to be able to show to the Sudanese people and to those who 
struggle for their own right that you are standing with them.
    I think it is very important also your role in the United 
Nations. In the Abyei area, you have a United Nations mission 
in that region to provide protection to the people, and I think 
that is a very big role. You played a very good role in the 
United Nations in particular also. Whether the United Nations 
can provide protection in that area is critical, but not only a 
mandate of protection, but it is critical also how to assist in 
the return and the settlement of the people.
    Mr. Chairman, also I know during the war it is difficult 
the issue of access. We should not expect the Sudan Government 
to give access to the people of Nuba Mountain. And the people 
would have to use a clandestine operation, so it is hard to see 
how the people of Nuba Mountain not having the organization can 
look for relief and development. It was through that process 
that we managed to give relief assistance to the people of Nuba 
Mountain, because they were restricted in the Operation 
Lifeline not to be accessed through Operation Lifeline Sudan. 
It is critical we look to the indigenous organizations that 
will be able to assist the people of Nuba Mountain, but I think 
it is important that also we should look for a safe corridor, 
and also for the IDPs camp in the South so that these people 
can be served easily from the South.
    Kush in Abyei area, as an organization that is working for 
peace and development, believe we can offer a lot in terms of 
helping the people and making the aid effective, using the 
indigenous organizations.
    And I would like also to echo again our appreciation, this 
is what Bishop said, about the role of the NGOs and other 
organizations. Avaaz program is one of the programs that 
managed to really focus attention to those satellite areas, and 
that will actually provide a lot of information that all of us 
should be very proud of. These are the efforts that we need to 
support.
    Again, what Congressman Wolf said, the role of the church 
is critical. It is not only about government, it is about the 
people. And the people of this great Nation can do a lot if 
they focus today on what they are seeing in Sudan.
    I want to conclude with what I believe we, in Kush, as a 
nongovernmental organization, can do also in the area. Our 
immediate efforts are based on the goal of stability and peace, 
but we have also a vision of the holistic development effort 
that will be needed one day as conflicts and crimes against 
humanity are put to rest. So we strongly encourage the United 
States to seek ways to support and build a strong network of 
nongovernmental organizations, like Kush and others working in 
the region, and these will provide a foundation to facilitate 
collaborative efforts in the South and the North, and to build 
a significant structure required to achieve a lasting peace and 
a democratic society that is respectable of the individual 
human rights and cultural and religious beliefs.
    I would like to thank you indeed for giving me this 
opportunity.
    Mr. Smith. Dr. Deng, thank you very much for your very 
comprehensive testimony and your work.
    [The prepared statement of Mr. Deng follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Let me just note for the record that we had 
invited the U.S. Department of State, and Secretary Johnnie 
Carson, or any one of his deputies; and USAID, Sharon Cromer or 
any of their Deputies. And admittedly it was very short notice, 
2 days ago we asked them. This is an emergency hearing, and I 
want the State Department and the USAID to know that this 
subcommittee will reconvene at any time in August--hopefully 
very soon--to hear specifically what is being done, 
contemplated, in response to this catastrophic, explosive 
situation that you have brought, our three distinguished 
witnesses, to the attention of the subcommittee. So let me make 
that very clear: We will reconvene at any time to hear that and 
to hopefully be part of a solution.
    And, Bishop Andudu, you made a veryimpassioned plea. You 
pointed out that the grave situation calls for the United 
States and the international community to translate more 
outrage into effective action. You talked about how your 
cathedral has been ransacked, your chaplain has been beaten. 
You make it clear that the Nuba people fear that they will be 
forgotten, that the world will stand idly by--these are your 
quotes--while mass killings continue without redress. And you 
talk about the house-to-house killings that are occurring as we 
meet here in committee. You also point out that the United 
States should deploy its own satellites to ensure that the 
reported mass graves are not tampered with.
    I would point out that this subcommittee has long and 
aggressively--everywhere in the world on every continent where 
this has occurred--emphasized not only stopping the atrocities 
and the genocide in the first place, but holding those who 
commit those atrocities to account, whether it be Charles 
Taylor, who, by early fall, is likely to be sentenced. Just 
recently, as we all know, Karadzic from Bosnia, a Bosnian Serb, 
was finally found. There is no statute of limitations on crimes 
against humanity and genocide. He was hunted down. And I was in 
Srebrenica a couple of times, including one for a mass burial 
of people who were slaughtered during an infamous couple of 
days in July. And the same thing happened in Rwanda, the same 
thing happened in DR Congo, and the same thing is happening 
obviously in Kordofan. So it is very important that we be very 
robust in collecting that evidence while we try to stop it. And 
I appreciate you bringing to the committee with exclamation 
points how important that is.
    Also, you made a number of very serious recommendations--
and I would appreciate any elaboration by you or other 
witnesses on that--that the United States cannot begin--this is 
your words--"to consider normalizing ties with Sudan, and 
should not delist Sudan as a sponsor of terrorism or approve 
this outlaw nation's access to international financing and debt 
relief'' while these terrible crimes against humanity are 
occurring. You also say the U.S. and the international 
community, including the African Union, must act.
    You also underscore that because of the bombing campaign, 
people have not been able to plant or to tend to their crops. 
And that means that by October, when the crops should have been 
ready to harvest, there will not be enough food to feed tens of 
thousands of displaced persons. And you call that a slow-motion 
genocide by design, and it is by design by the Khartoum 
government.
    You also make a very impassioned appeal that effective 
peacekeeping forces with a real mandate to actually keep the 
peace and not stand by while mass murder occurs house to house 
around the clock.
    So the question would be to the United States. In your view 
or any of the panelists' view, has the United States done 
enough? Has the international community done enough? Have the 
peacekeepers, who are now obviously redeployed--what should be 
done, new deployment? What would be your recommendations there?
    And obviously you make a point, Bishop, that there needs to 
be bold action by the United Nations Security Council. Say this 
is the Security Council. What would you say to them needs to be 
done right now?
    Bishop Andudu. I think, first of all, the bombings, we need 
to stop these bombings for the civilians. And there is many 
ways might be the U.S. can be able to stop the bombings or the 
killing of the people.
    Number two, access of the humanitarian aid is really very 
crucial. We don't have medicine in the Nuba Mountains now, we 
don't have food. People are running in their cave, they have no 
food. And also, I know U.S. is trying, but we need some more 
efforts. Because U.S. Government is part of the people who 
brought the peace in Sudan, but Nuba Mountain is part of the 
Comprehensive Peace Agreement, but they are not finished. So we 
need really the government to go ahead and to still continue to 
achieve peace and freedom for the people of Nuba.
    And at the same time, let us know news coming from the 
ground. No media, but I think they can go and see for 
themselves because it is very difficult. The Government of 
Sudan is prohibiting anybody to go and to see and to report. 
They don't want reporters.
    So my question I was asking, is the Government of Sudan 
greater than the United Nations, African Union, U.S. 
Government? Is this greater than preventing all things to be 
seen? And how many years people are dealing with this 
government, but it is still doing the same. Omar al-Bashir is 
wanted, and Haroun is wanted for the International Criminal 
Court, but they are still there in Sudan. These men are wanted, 
but they are still living together. Why are they allowing this 
regime to continue doing their same action?
    So these are my questions really, what U.S. is going to do, 
if they can intervene and they act. We have been talking, we 
have been telling this for many times. But also, now I am happy 
that Avaaz, this organization, is now signing a petition of 
half a million. I hope the government will be able to hear 
these voices for the world's people who are also trying to help 
us.
    Mr. Phillips. Yes, I would just echo what the Reverend 
said. And, of course, this regime in Khartoum has a long 
history of dishonoring agreements, as Dr. Luka Biong pointed 
out. And I think one of the basic problems coming from 
Washington, DC, is that we continue to try to deal with these 
people as honest brokers and not look at them as the murderous, 
genocidal regime that they are.
    Why does our Ambassador Princeton Lyman, when he is 
introduced and asked about war crimes taking place--in one of 
the interviews that I read that was recent, he said, well, we 
hear the allegations, but nobody is on the ground to see it. I 
met with one of his representatives this week, and I was 
basically told that the position of our Government was one of 
moral equivalency between the two sides. And this isn't really 
honest, we are not being honest with ourselves.
    There is plenty of evidence. There are journalists. I was 
there with a team from Aljazeera English. They produced a 
fantastic documentary that has been run over and over again, 
and you can see it on YouTube, Callum Macrae, which really 
exposes what is happening there. There was a team from the New 
York Times, from Time Magazine, from the Independent--Julie 
Flint has written some excellent articles. There are people 
with cameras and VSATS and Internet. You can get more 
information now on this genocide than you could in the previous 
war.
    And the fact that the ICC recognized the leadership of the 
National Islamic Front or the National Congress Party as being 
responsible for genocide, and specifically recognized Ahmed 
Haroun, why doesn't our Government recognize them in that way?
    With regard to the U.N. forces, there are all kinds of 
stories coming out of the U.N. forces who are from Egypt in 
Kadugli standing by watching the slaughter take place, and they 
are supposed to be peacekeeping forces, allowing the 
intelligence services of the SAF to come in and take people out 
of their compound. There was one incidence where six Nuba women 
sought shelter in an UNMIS compound, and they were raped by the 
UNMIS, by the Egyptian forces. So it seems as if even some of 
the forces of UNMIS--and I know it is not true for all of 
them--are complicit with Khartoum. There are internal documents 
from the U.N. that I am told the U.N. is actually being forced 
to release very soon, because even some members of the U.N. 
were victims of these atrocities when it happened.
    So this should be investigated. These people should be 
prosecuted in the U.N. and brought to justice. And our 
Government should get off the fence and distinguish between the 
victims and the perpetrators of genocide.
    Mr. Smith. Very quickly, and then I will yield because I 
know Bishop Andudu has to leave shortly, and I want other 
members to be able to ask him questions. But let me just note 
how disturbing it was that Bashir visited Beijing in late June, 
and rather than ensuring that he was apprehended and sent to 
The Hague where he ought to be held to account, nothing of the 
sort happened. He was treated and feted as a great man.
    And secondly, Erdogan in Turkey refused to listen to EU 
requests when Bashir visited Ankara. Again, there should have 
been an arrest made and this man prosecuted for genocide.
    Mr. Phillips. Mr. Chairman, last year Kenya inaugurated its 
new Constitution, and the U.S. Government had a lot to do with 
bringing that Constitution. And Mr. Bashir was the main story, 
his presence in Nairobi, Kenya. So he is showing up all over 
the place, and nobody seems to be concerned about his arrest 
warrant.
    Mr. Smith. Thank you.
    Mr. Payne.
    Mr. Payne. Thank you very much.
    And I couldn't agree more that the International Criminal 
Court, which I think is a great institution. However, we know 
that it is very difficult to have a court without having an 
enforcement mechanism, and, of course, that is a very weak part 
of the International Criminal Court. At one time it was thought 
that Interpol, being an organization of police throughout 
Europe anyway, could perhaps serve as an enforcement arm. But 
the question is, how do you apprehend the criminal in our 
country? Without police, we would have no use for courts.
    But I do believe that we should continue to support the 
International Criminal Court and try to really work on ways to 
strengthen it. At least these criminals are being indicted; 
they know that this indictment stands over their head. They 
know where they can go, but they know that 90 percent of the 
places they cannot go. And I think that time will take care of 
Mr. Bashir.
    Dr. Deng, with the arrangement that was supposed to be made 
on the areas in dispute, I think that, unfortunately, as I 
indicated, the 1956 map, when independence came from Britain, 
creates the situation, because that map is still being used as 
the borders. And as we saw in Kashmir region between India and 
Pakistan, once again, the British left an unincorporated area, 
left it to be determined in the future. And as we know in 
Kashmir, there is still fighting going on between Pakistan and 
India over that area.
    And so I certainly have a real concern that, of course, 
South Kordofan and Blue Nile, under the map and the agreement--
although they were supportive of SPLM and prefer to be a part 
of the South, the map has drawn them into the North.
    Now, could you tell me what--I have read it, but what type 
of an agreement was supposed to be enforced in Blue Nile and 
Southern Kordofan to work on a way of having a government? 
There was supposed to be an integration of the military also 
with the SPLM into the forces in that area. Could you just 
explain what the special group that was supposed to handle this 
was supposed to do?
    Mr. Deng. Thank you, Congressman Payne, for the question.
    I think the whole issue of the North/South border is a very 
critical issue. And what we have agreed to when I was in 
negotiations is for the parties to agree, although we have 
defined the 1956 as the border between the North and the South, 
a committee was set up. And there was a commitment by the 
parties to ensure that but that committee did not move very 
well. And what happened, we said we should stick to the 
amicable dialogue of finding a peaceful settlement of the 
disputed border between the North and the South--not the Nuba 
Mountain and the Blue Nile. And if we fail to agree on those 
areas, we should resort to arbitration in a very peaceful way. 
It should not trigger a war.
    For the Nuba Mountain and Southern Blue Nile, it was after 
the incident happened an agreement was signed, mediated by the 
African Union High Implementation Panel under the auspice of 
President Mbeki. And the content of that agreement, first, that 
we should have a ceasefire. Second, we should go for the 
dialogue and discussing how to decide what should be the status 
of the SPLA forces in Nuba Mountain and Southern Blue Nile.
    The SBLM was pushing for the argument that there is no way 
you can just disarm these people, these are the people who 
fought a political war. And they accepted the agreement to 
ensure that the popular consultation is conducted. And in lieu 
of that, you cannot just disarm them, because you will create 
them as another struggle in the greater movement happening in 
these two areas. So the parties agree that they should sit and 
continue to dialogue what should be the status of the SPLA in 
Nuba Mountain and Southern Blue Nile
    Secondly, they discussed only the political landscape of 
Sudan after the secession. But having the SPLM Northern Sector 
as a political party, and to exercise and then to do its 
political activities. Because what happened is that the NCP 
said, after the secession of the South, the SPLM is going to be 
an illegal political party. It was agreed in Addis Ababa that 
SPLM Northern Sector will be a legal political party that can 
exercise its activities in the North, and by doing so so that 
you can have a credible political party that can engage in 
democratic reform in Sudan.
    The other one is that the whole debate about what is going 
to happen, the whole debate about the composition after the 
secession of the South. So at least the two parties--SPLM in 
the North and the NCP--to discuss how they are going to give 
another space an opportunity for reforming Sudan, because they 
are now getting into these permanent composition to be 
discussed by all the actors.
    It was agreed by Nafie himself, who is the Deputy of the 
President. And then when he went back, Bashir and other people, 
they reject it outright. They were not agreeing to the 
agreement that was signed and also witnessed by the African 
Union. And that is why, when we say that even for the role of 
the United Nations or the African Union, is for them to accept 
this very agreement that they signed, because this one is 
giving an opportunity for the parties to engage and to dialogue 
and to discuss a very fundamental issue about the viability and 
the stability of Sudan.
    Mr. Payne. Just let me ask a follow-up question. Your new 
organization, Kush, how do you see your organization being able 
to be of assistance? And do you think that at this time your 
newly formed group would be able to assist in attempting to 
come up with resolutions in these three disputed areas?
    Mr. Deng. At Kush, as I mentioned earlier, we want to forge 
a relationship between the people of the United States and 
Africa, and we work in Southern Sudan and Abyei. And in 
particular we work in Abyei, because Abyei is a flash point, 
because the invasion of Bashir into Abyei has tarnished any 
chance for building confidence between the North and the South. 
And that is an area that is not only on the North/South border, 
but it has a lot of challenges, challenges of oil, challenges 
of conflict, and challenges of displacement.
    And Kush is trying to see how best we can best advocate for 
a finer solution for the Abyei issue, helping the people to 
advocate. And the options available now are whether Abyei 
should return back to the South, because it was part of the 
Southern Sudan in 1905 and was transferred to the North, or 
have a referendum to be held within a very conducive 
environment.
    And secondly is the role of the United Nations. Now we have 
United Nations peacekeeping forces on the ground. And what the 
agreement was saying, actually we should discuss the role of 
the United Nations in protection, because although this force 
is given Chapter 7 to protect the citizens, we know what 
happened in Congo. You may be given a very good mandate, but 
then if it is not a word defined properly, then it will be a 
problem. So let us engage with the United Nations of what does 
it mean, Chapter 7, because you might have heard even these 
forces now in Abyei, four of them got killed. And even those 
injured, they were not given a chance even to be evacuated for 
medical attention by the Sudan Armed Forces in Abyei.
    So what we are saying, whether the United Nations' role in 
Abyei is only protection, to assist the return of the displaced 
people, the number that you mentioned, and Kush could help in 
returning these people with the choice of the people. And there 
is an element that we are seeing, this opportunity having an 
organization on the ground, because sometimes these 
international organizations also prove, in most cases, that 
they cannot deliver. This is a whole lot of ineffectiveness. It 
is critical. And whether we can look for a partner and 
indigenous organizations that will have the knowledge in the 
content and to assist the return. So these are ones that we are 
discussing.
    The final one is building the peace at the grassroots 
level. And because we believe the relation of Misseriyia and 
the Dinka is actually a created situation, the tension created 
by the NCP dragging in the Arab nomads against their will into 
this war, and they become a victim. What we are saying is, let 
us look at whether we can force a peace building among this 
community.
    These words are echoed very well even to the Nuba Mountain 
and the Southern Blue Nile. And that is why I am saying the 
role of the United Nations, especially the Security Council, is 
first to investigate these atrocities first. And if the 
magnitude of the investigation is really great, then it is upon 
the United Nations to see a possibility of having a protection 
of the people, and then whether we could use the United Nations 
forces in Abyei, the Sudan forces, to be extended even to cover 
the Nuba Mountain and Blue Nile with a mandate of protection.
    Also, I have a feeling that United Nations can help also in 
terms of assisting in the conduct of the popular consultation, 
because it is an achievement of the people of the Nuba 
Mountain, and also in the context of a referendum if we fail in 
Abyei, and if we fail to get a political solution of returning 
Abyei to the South.
    Mr. Payne. Thank you very much.
    And, Mr. Phillips, I really appreciate your courage and 
what you have done, the work that you have done. And I couldn't 
agree with you more. I was one that was trying to get a no-fly 
zone a decade ago to prevent when Darfur broke out, but we 
could not get--as a matter of fact, President Bush agreed at 
one point to almost support the no-fly zone, which would have 
prevented the bombings that continued in Darfur. But I am just 
wondering, in the short time that I have left, what are some 
recommendations that you would like to see us do if you had the 
authority to do yourself?
    Mr. Phillips. Well, thank you very much, Congressman Payne. 
And I am so grateful for your leadership on this issue.
    First, I would point out that the intentions of--what Dr. 
Luka Biong said about how they illegalized the SPLA Party in 
the North and the way that relates to the integrity of the 
popular consultation just reveals that they never really had 
any intention of keeping any of the agreements regarding these 
three contested areas.
    The Southern Kordofan State is the place where for the last 
12 months they have been staging attacks by militias that they 
sponsor into South Sudan. As it is the longest border with 
South Sudan and borders four states. It is a very strategic 
area. It is one that the Republic of South Sudan, I know, is 
very concerned about. And it is one that the U.S. Government 
should be very concerned about as the caretaker of the CPA. And 
I think we haven't done enough really to enforce the CPA.
    The attempt to disarm the SPLA and to legalize their party 
and so on way ahead of any mandated requirement by the CPA was 
a provocation. I was very discouraged when I met with the State 
Department and I was told that their position was that the SPLA 
had provoked Khartoum into attacking Abyei, that the SPLA 
wanted war as much as Khartoum. Even though we do know that 
there are war crimes and genocide taking place, we believe 
that--this was the position I was given at the State 
Department--they believe that both sides want war. So that 
really gave me a real sick feeling in the middle of my stomach.
    We know where the planes are that are bombing civilians, 
that are blowing little girls in half. They are in El Obeid. It 
wouldn't take much to solve that problem, and it would cost a 
whole lot less than what we have done in a place like Libya. We 
ought to--whether or not we are prepared to do that, at a 
minimum we should be, in our rhetoric and in our moral stance, 
we should be siding with the victims of it. We should be 
demanding that the U.N. declare a humanitarian emergency so 
that humanitarian access is allowed.
    When I made my trip in, it had been about 6 years since I 
had been in that situation, because I had enjoyed the interim 
relative peace like everybody else, and I wasn't really 
prepared, but it is dangerous. And as has been mentioned, there 
is a serious humanitarian crisis that is approaching. There are 
70,000 to 90,000 people that are probably going to die in the 
next month to 2 months because the roads are shut down to the 
north, and the flights are not coming in to the Nuba Mountains 
right now.
    And so the U.S. Government needs to have a loud voice and 
build a loud bonfire with the help of advocates and churches 
complaining about what is happening, and putting pressure on 
the U.N. to take action, putting pressure on the U.N. to start 
changing the way they communicate on this as well.
    So I think, at a minimum, we need to publicly differentiate 
between the victims and the perpetrators of genocide. And there 
are many solutions that can come--and the Southern Sudanese 
need to know that we don't have a problem with them helping the 
Northern Sector of the SPLA and the SPLM because this is a 
threat to the integrity of their nation.
    Mr. Payne. Thank you. I couldn't agree with you more.
    The Government of Sudan always tends to exacerbate a 
situation, as they did in Darfur with the little skirmish 
between some local people and the garrison there. And they 
ended up bombing for weeks thousands of huts to retaliate for 
the small incident that should not have occurred, but it did. 
And even with the incident of a shot that was fired allegedly 
by one soldier of SPLM, possibly; therefore, the Government of 
Sudan then comes back with overwhelming force. And Abyei has 
stated the SPLM attacked. It was inadvertently something that 
happened, a gunshot goes off, and they use that excuse then to 
continue to genocide.
    Mr. Phillips. Nobody is surprised in Sudan by what Khartoum 
is doing. It is consistent behavior. And when I was with 
Commander Abdel Aziz, and he was interviewed by Aljazeera, and 
he was doing some other interviews, he made the point over and 
over again the problem is not with the Nuba people. The Nuba 
people are united. The problem is not in Southern Kordofan 
State. The problem is not among the people in Abyei, even the 
Misseriyia people that originated. The problem is not there. 
The problem is in Khartoum. And that is how our Government 
needs to look at it. They need to understand that this is not a 
tribal internal conflict in Southern Kordofan State or in 
Southern Blue Nile State or in Abyei. We have some obligations 
as a caretaker of the CPA, as part of the troika, to enforce 
it.
    Mr. Smith. Ms. Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman.
    Mr. Phillips, I would like to follow up on a couple of 
things you said both in your testimony and with the ranking 
member.
    You mentioned that 70,000 to 90,000 people would die within 
the next month. Can you elaborate on that? Is that from lack of 
food?
    Mr. Phillips. Well, I traveled around four countries in 
Southern Kordofan State during the 12 days that I there was. It 
was a very different trip than the one I made in 1998 where you 
had to do everything by footing. A lot of roads have been built 
during the last 6 years, so you can really move around.
    There are 19 counties in Southern Kordofan State, and most 
of the Nuba population--and Dr. Luka can correct me if I have 
my facts wrong--but I believe most of the Nuba population are 
in about five of those counties, and that is where the aerial 
bombing campaign is taking place. We heard bombing and planes 
flying over us three or four times every day. In some places 
they said, have a good night's sleep; just realize the plane 
never gets here before 7 o'clock in the morning, so you should 
get up a little bit before then so you can make your way to the 
dugout. In other places they said, well, here they are bombing 
at nighttime by GPS coordinates at 2, 3, 4 o'clock in the 
morning. That is why all those people are living on the 
hillside.
    There are about 425,000 people spread out over those five 
counties of Southern Kordofan State that are displaced from 
their homes. When I was in El Baram County, I learned that 
there were 600 people in just 1 month that were wounded by the 
bombing, and there were more than 150 that had died by the 
bombing. I visited a lot of those people in the hospital. But I 
saw El Baram. It is completely wiped out. The town is 
completely wiped out. Every building is wiped out by a MiG 
attack, by Antonov attacks. Most of the killing happened in 
Kadugli, in these house-to-house searches.
    What is happening now, the SPLA controls most of Southern 
Kordofan State, and they have the support of the people. That 
is how they can control it. There is fighting going on for 
control of Kadugli, where there are 40,000 SAF inside of the 
city of Kadugli, but the rest of Southern Kordofan State is 
essentially in the control on the ground of the SPLA. So the 
bombing is what is displacing 425,000 people. And out of those, 
about 25 percent of them are going to face a serious issue 
related to food because the roads have been cut off. There used 
to be commerce with the North. That has been cut off. The road 
to the South is affected by swamp this time of year. So there 
is no access on the ground, and there is very little access by 
air because no plane wants to get shot out of the sky by a MiG. 
And there is no umbrella.
    When we went to the Nuba Mountains in the 1990s, there was 
Operation Lifeline Sudan. And even though it was a red no-go 
area, the existence of the OLS gave a degree of insulation from 
attack. And they weren't using MiGs in those days. So now it is 
a much more difficult situation, it is a much more dangerous 
situation for an NGO, or a charter company, or the NRDO, or the 
Diocese of El Obeid to bring a flight in there.
    Ms. Buerkle. And so the organizations you just mentioned, 
those are the ones that were flying in the humanitarian 
flights?
    Mr. Phillips. Right now the two groups that have continued 
to bring in flights on a very limited basis has been the 
Catholic Church Diocese of El-Obeid and the NRDO, which Dr. 
Luka mentioned, which is the relief arm, indigenous relief 
organization there in the Nuba Mountains.
    Ms. Buerkle. And where do those planes fly into? Where are 
they able to serve?
    Mr. Phillips. Well, it is very difficult, and they have to 
change locations all the time. They are running a real risk. 
The pilot, for example, that took me in was bombed, and he 
said, I am not going to come pick you up. So my 3-day trip 
turned into a 12-day trip. And the next plane that was supposed 
to come pick me up was diverted to go someplace else, and so we 
were stuck until we found somebody who was willing to take a 
risk.
    That is the reality right now. It is much worse from that 
point of view than during the existence of the OLS. So the U.N. 
needs to take some action and declare an emergency, at a 
minimum.
    Ms. Buerkle. Thank you very much, Mr. Phillips.
    And I will yield back my time.
    Mr. Smith. Chairman Wolf.
    Mr. Wolf. Thank you, Mr. Chairman. I want to again thank 
you and Mr. Payne for the hearing.
    Is there anybody here from our Government at all, AID, 
State Department, anybody? Just raise your hand. Anybody here 
from the U.N.? Wow. Anybody here from the Sudan Government? The 
Embassy?
    This is a fundamentally evil government. They are evil. As 
Ronald Reagan said with regard to 1983, they are fundamentally 
evil. Evil. And until you remove Bashir, this will continue. 
This will continue. It will not change. How long will the West 
pretend? It will continue.
    China welcomed Bashir. They gave him the red carpet. I have 
a picture, red carpet. Whenever American businessmen go to 
China to meet with Hu Jintao, you are meeting with a guy who 
has blood on his hands. The largest Embassy in Khartoum is the 
Chinese Embassy. They are all over the place.
    President Bush offered them and said there would be 
antiaircraft material, and this administration never sent it. 
You take one of those Antonovs out of the sky, and it will 
change the dynamics, and yet these people are being chewed up 
and chewed up and chewed up.
    The U.N. has failed. The U.N. failed in Rwanda, the U.N. 
failed in Bosnia, the U.N. failed in Darfur. They stood by and 
allowed 400,000 people to die. Read Samantha Power's book. Kofi 
Annan watched what was taking place in Rwanda. President 
Clinton felt so bad about it before he left, he went to Rwanda 
to apologize because the State Department was watching. What is 
taking place here took place in Rwanda, and Secretary 
Christopher allowed it to take place, and nobody did anything. 
Read Samantha Power's book.
    China is the problem. You have to remove Bashir. You have 
to remove Bashir. He has to be removed. Government change, 
regime change, there is no other way. It has been going on for 
21 years. Two-point-one million people, mainly Christians, but 
some Muslims, killed in the North/South battle; 200,000 to 
400,000 killed in Darfur. He just said the U.N.--and I heard, 
too--were turning people over to be taken away. That sounds 
like the Nazis to me. That sounds like something out of a bad 
movie.
    The U.N. has failed. These are war criminals. They are war 
criminals. That is it, it is over. They are war criminals. I 
don't think anybody connected to this government ought to be 
permitted to visit the United States, period. We should close 
their Embassy down and force them out. If you are working--
Libya? Libya is a problem because of Ghadafi. Syria is a 
problem because of Bashar, because of President Bashar al-
Assad. This guy is much worse. And to meet with them, it is 
incredible. They should be expelled. They should be expelled 
from our country.
    And Britain, if this was happening in southern France or 
southern Germany, this place would be electrified. It would be 
wild. But it is happening in a country--and it is racial, too. 
I mean, do not deny that it is racial. It is racial, and it is 
religious. And the world is standing by and allowing this to 
take place.
    The U.N. has failed, and they are failing, and I just don't 
want my country to fail. This administration better get some 
energy. Princeton Lyman should step up or step down. I like 
Princeton Lyman, but he should step up or step down. These 
people are going to be killed, and for this to take place--and 
no one from the Khartoum government should be permitted to go. 
If they want to get an operation, let them get it in Khartoum. 
If they want to educate their kids, let them educate them in 
Khartoum. No one connected to this government should be 
permitted to visit the West at all.
    And I will do anything--and I appreciate it again, God 
bless Mr. Smith and Mr. Payne and Ms. Buerkle for being here, 
too.
    These are evil people. It is an evil government. I mean, to 
sit in a hearing and talk about how maybe the U.N. could have 
done something--and I know it didn't exist then--to kind of get 
Hitler out. I mean, he was an evil man. This guy is an evil 
man, it is an evil government. Regime changes.
    But it is time for our Government to do something about it. 
We are not talking about troops. We are talking about just give 
them the ability. Are there tanks that the Southern Sudanese 
Government has tried to bring in? Where are those tanks now? 
They are still in Kenya. They haven't even allowed them to come 
in to defend themselves.
    I want to thank both of the witnesses. I appreciate this 
thing. We should send a message to the people of the South, the 
people of Kordofan, the people of the Nuba Mountains. You know, 
the Nuba Mountains in Kush, the Kingdom of Kush, is mentioned 
in the Bible. It goes all the way back to Biblical times.
    I just wonder how some people in this administration will 
feel when they leave and they know they missed the opportunity, 
how Ban Ki-Moon will feel knowing he is sitting here doing 
nothing, and how they will feel when someone writes the book 
about this.
    It is an evil government. The regime change should be 
taking place. Bashir should be arrested and taken to The Hague 
and tried.
    And again I want to thank Mr. Smith and Mr. Payne for 
really being the leaders on this, and Ms. Buerkle for getting 
out in front and speaking truth, and thank both of the 
witnesses for their time.
    Mr. Phillips. I just thank you very much, Congressman Wolf. 
And I agree 100 percent. These are not statistics, these are 
real people. And the only reason why they are being 
exterminated is because they are African, they are indigenous 
Africans, Black Africans. The only reason why they are being 
exterminated is because they don't subscribe to the same stripe 
or religion as Khartoum. And we can't sit by and watch it 
happen.
    The President of the United States ran very strongly on 
this issue. He said that he supported a no-fly zone in Darfur. 
Mr. President, what are you going to do? You know what is 
happening. What are you going to do?
    Mr. Deng. First of all, I am very moved and honored seeing 
this committee painting a picture about what is happening in 
Sudan. And, Congressman Wolf, these are real words of hope to 
the people of these areas. But I also want to highlight why we 
are focusing on those issues.
    I think the fact of the matter is that on the ground now, I 
think it is important that what could we do collectively, and 
especially this country. We know the difficulties, but it is 
important that we should keep an eye on Southern Sudan because 
Southern Sudan is going to be a home, a refuge for the 
atrocities being committed along the border. And that is why we 
say it is a country that we should invest in it. And 
importantly consider the recommendations, but I think 
fundamental issues, especially the issue of water, education 
and agriculture, in the context of the famine that we are 
seeing in the region.
    But I would like also to echo Congressman Wolf, what we 
discussed at a certain point in time when we visited you in 
your office. And I think the capacity of the Government of 
Southern Sudan is important. And whether we can use the South 
Sudanese here in the United States, Americans, to go back home 
and then to assist in building this nation. It is a real 
problem that we feel that it is important that for the South 
Sudanese-Americans that could go and assist the government. 
They have some difficulties, especially on the issue of student 
loans and the like, but this is going to be an important 
support to the Government of Southern Sudan.
    I think important also, a whole lot of aid assistance 
should increase, because the way they are seeing along the 
border, we need to put more focus on humanitarian assistance. I 
think we are going to see more people displaced, more 
humanitarian needs in that area. We should scale it up, and 
then we should be able to assist.
    I think a whole lot of indigenous organizations--like Kush, 
and I think the world will believe it. Being in the government, 
I decided to come out and do something different. We can help 
the people on the ground. And I think this is what we are 
striving to, and we hope, together with you, that we can make a 
difference on the ground.
    Thank you very much.
    Mr. Smith. Thank you very much.
    I will go to Mr. Payne for any concluding remarks, but let 
me just point out that back in the mid-1990s, I chaired the 
first hearing ever on chattel slavery in Sudan. Most people who 
heard the hearing, and even some people who protested that I 
was actually holding a hearing, again taking Bashir to task for 
the empowerment of chattel slavery, thought it was a hearing in 
search of a problem that didn't exist, and we all know that 
that is not the case.
    But fast forward to just as recently as yesterday. I called 
over to one of our consular people advocating on behalf of 
another Mr. Deng, who was enslaved, as was his mother. He was 
hung upside down, and pepper was rubbed into his eyes, causing 
a very significant, near-blindness condition.
    Ellen Ratner, a journalist, has taken up his cause and will 
pay for a doctor and airfare for him to get a very significant 
medical treatment that will, we believe, give him back his 
sight. I hope the Embassy or the consular section approves his 
visa. We have been trying for months--this is our side now that 
has not given him the visa yet. It was supposed to be today. I 
understand it has now been postponed until Monday.
    But it underscores the viciousness of Bashir and his like-
minded cronies who have committed slavery, continue to do so, 
and even then the U.S. Department of State suggested that it 
was not as widespread as many of us had concrete information 
about. Almost like Mr. Phillips bringing forth fresh, 
incriminating information about how this is not both sides 
committing things, and somehow we are just going to be the 
arbiter, rather than realizing that there is an all-out assault 
on the Nuba people that has to be stopped as quickly as 
possible, and the U.N. Security Council and the U.S. and the 
African Union all need to be on the same page to do so.
    President Bashir was quoted in April that he was going to 
use force in Southern Kordofan. We know that this man is 
pathological. I met with him and I argued with him for well 
over an hour, almost 2 hours, about Darfur in the mid-2000s and 
was taken by his--he reminded me of Milosevic, who Mr. Wolf and 
I met with on previous occasions, and other dictators. There is 
something abysmally wrong psychologically with these 
individuals, and just because they have the veneer of being in 
charge of a state, people somehow convey a legitimacy that is 
absolutely undeserving. And we know throughout history 
dictators have committed huge and horrific atrocities. They are 
going on right now.
    This is an emergency hearing. I said it before. We invited 
the State Department and USAID. We stand ready to reconvene at 
the drop of a hat. Mr. Payne and I, wherever we are, will get 
back here to hear from our own administration what their plans 
are to combat this horrific situation.
    With that said, Mr. Payne.
    Mr. Payne. Thank you.
    Let me thank you again and Mr. Wolf for his many years of 
passionate support. And it is good to have a newcomer to bring 
into the team. Ms. Buerkle, I am pleased to have your interest 
here.
    I would just like to think back of some other persons--
probably the only thing we agreed on between Congressman 
Tancredo and myself was Sudan. He went on his first codel with 
me to South Sudan, and we stayed in tents with Samaritan's 
Purse. I told him that is what a typical codel was like. And he 
didn't know since he was new, but he found out later that 
codels are a little bit different than the Payne codel staying 
in a tent. But he and Senator Brownback, who was so strongly 
supportive, and Senator Frist, those who have for many years--
and we have now Senator Coons now from Delaware who has 
expressed a very strong interest. So we will continue to push.
    There is no respect from the government of Khartoum. Even 
when President Carter was visiting Sudan with Operation 
Lifeline Sudan, Bashir bombed the area just to let him know 
that ``I am in control.'' And so we have seen--Dr. Garang did 
say that Bashir and his government are really too deformed to 
be reformed was one of his statements, and I couldn't agree 
more. It was July 30, 2005, when Dr. Garang's life was taken. 
He was a very personal friend of mine. I did attend the 
funeral. He fought for 21 years for independence; 4 million 
people displaced, 2 million people died, and he was killed 21 
days after the signing of the CPA, which I attended when it was 
signed.
    And so we have to remember the work that he did. He really 
wanted a new Sudan. He was really dreaming for a united Sudan. 
But the Bashir regime were afraid of--as a matter of fact, when 
he went to Khartoum after the CPA was signed, the outpouring of 
tens of thousands of people from the North--Muslims, people who 
were Islamic supporters came out to support him because they 
looked at him as a liberator and probably got the Bashir 
government a little concerned that a Southerner could possibly 
become the President in a fair election in Sudan.
    So we have to keep the pressure on. I would like to 
certainly commend Congressman Smith, as I mentioned earlier, 
for keeping this issue before us. We will continue to push for 
justice. We should have done that no-fly zone. And I agree with 
you, you take out a few of those, just let them know, you come 
in--keep your pilots out, we don't want to kill anybody. We 
could have taken all those planes out and finished them. And so 
now we have a difficult situation.
    But I agree with you that we have to keep the pressure on. 
We have to support President Salva Kiir, who is struggling now 
to try to move his new nation forward. But I know with people 
that we have support of here, we will continue to be the voice 
of the people of Sudan.
    Thank you.
    Mr. Smith. Any final comments from our distinguished 
witnesses?
    I thank you very much. We will continue this. And I 
appreciate your wisdom, your counsel, and your recommendations 
today.
    The hearing is adjourned.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<Copyright>a<natural><Rx>a<star>a<Rx> 
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
